          Independent Auditor's Report

International Boundary and Water Commission, 

           United States and Mexico, 

                  U.S. Section, 

              Financial Statements 


          September 30, 2011 and 2010
             AUD/FM·12·37, June 2012




                Clarke Leiper, PLLC
             Certified Public Accountants
                6265 Franconia Road
             Alexandria, Virginia 22310
                    (703) 922-7622
                                                    CLARKE LEIPER, PLI £
                                                 CERTIFIED PUBLIC ACCOUNTANTS
                                                       6265 FRANCONIA ROAD
                                                     ALEXANDRIA, VA2231()..2S10
                                                            103_922_7622
                                                          FAX: 703--922_&256
OORA M_CLARKE
LESLIE A. LEIPF..R




                                          INDEPENDENT AUDITOR'S REPORT

          To the United States Commissioner
          International Boundary and Water Commission,
          United States and Mexico, U.S. Section:

          We (C larke Leiper, PLLC) have audited the accompanying International Boundary and Water
          Commission, United States and Mexico, U.S. Section (USI.BWC), Consolidated Balance Sheets,
          Consolidated Statements of Net Cost, Consolidated Statements of Changes in Net Position, and
          Combined Statements of Budgetary Resources (annual financial statements) as of, and for the
          years ended, September 30, 2011 and 2010. We have considered internal control over financial
          reporting and compliance in place as of September 30, 20 II , and for the year then ended, and we
          tested compliance with selected laws and regulations.

          As detailed in Note 18, during FY 2011 , US IBWC became aware of a material misstatement in
          its 2010 financial statements related to a significant, multiyear improvement project constructed
          by another entity on behalf ofUSIBWC. As a result, USIBWC has restated 2010 balances and
          activity, specifically, fixed assets, accumulated depreciation, depreciation expense, cumulative
          results of operations, and donated capital. Accordingly, our report on USIBWC's 2010 financial
          statements, dated March 31, 20 II , should not be relied upon.

           In our audits ofUSIBWC's 2011 and restated 2010 financial statements, we found

                     • 	 the financial statements are presented fairly, in all material respects, in conformity
                         with accounting principles generally accepted in the United States of America;

                     • 	 no material weaknesses in internal control over financial reporting and compliance
                         with laws and regulations; and

                     • 	 no instances of reportable noncompliance with laws and regulations we tested.

          Each of these conclusions is discussed in more detail on the following pages. This report also
          discusses the audit objectives, scope, and methodology.
                  OPINION ON THE ANNUAL FINANCIAL STATEMENTS 


In our opinion, usmwc's annual fmancial statements, including the notes thereto, present
fairly. in all material respects, USIBWC's financia l position as of September 3D, 2011 and 20 I 0,
and its net cost of operations, changes in net position, and changes in budgetary resources for the
years then ended, in confonnity with accounting principles generally accepted in the United
States of America.

As detailed in Notc 18, during FY 2011, USIBWC became aware ofa material misstatement in
its 2010 financial statements related to a significant, multiyear improvement project constructed
by another entity on behalf ofUSIBWC. As a result, USIBWC has restated 2010 balances and
activity, specifically, fixed assets, accumulated depreciation. depreciation expense, cumulative
results of operations, and donated capital.

                                     INTERNAL CONTROL

In planning and performing our audits of USIBWC's financial statements as of, and for the years
ended, September 30, 2011 and 2010, in accordance with auditing standards generally accepted
in the United States of America, we considered USIBWC's internal control over financial
reporting and compliance as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the annual financial statements but not for the purpose of expressing
an opinion on the effectiveness ofUSIBWC's internal control over financial reporting and
compliance. Accordingly, we do not express an opinion on the effectiveness ofUSlBWC's
internal control or on management's assertion on internal control included in the Management's
Discussion and Analysis section.

We limited our consideration of internal control to those controls necessary to achieve the
objectives described in Office of Management and Budget (OMB) Bulletin 07-04, Audit
Requirements/or Federal Financial Statements, as amended. We did not consider all internal
controls relevant to operating objectives as broadly defined by the Federal Managers ' Financial
Integrity Act of 1982, such as those controls relevant to ensuring efficient operations.

The purpose of internal control is to provide management with reasonable, but not absolute,
assurance that the following objectives are met:

       • 	 Financial reporting: Transactions are properly recorded, processed, and summarized
           to permit the preparation of financial statements in conformity with accounting
           principles generally accepted in the United States of America, and assets are
           safeguarded against loss from unauthorized acquisition, use, or disposition.

       • 	 Compliance with laws and regulations: Transactions are executed in accordance with
           laws governing the use of budget authority, Government-wide policies, laws
           identified by OMB in Appendix E of Bulletin 07-04, and other laws and regulations
           that could have a direct and material effect on the annual financial statements.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
                                                 2

prevent or detect and correct misstatements on a timely basis. A material weakness is a
deficiency or combination of deficiencies in internal control such that there is a reasonable
possibility that a material misstatement of the entity's financial statements will not be prevented
or detccted and corrected on a timely basis.

Our consideration of the internal control over financial reporting and compliance was not
designed to identi fy all deficiencies in internal control that might be deficiencies, significant
dcficiencies, or material weaknesses. Therefore, there can be no assurance that all deficiencies,
significant deficiencies, or material weaknesses have been identified. We did not identify any
deficiencies in internal control that we consider to be material weaknesses, as defined.

However, we identified three deficiencies in USIBWC's internal control that we consider to be
significant deficiencies. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severc than a material weakness yet important enough
to merit attention by those charged with governance.

    • 	 The Department of State provides accounting services to US IBWC. Defects in the
        construction of posting models within the Department of State's financial accounting
        system have resulted in erroneous data being included in reports issued to USIBWC,
        particularly in the area of budgetary accounts. Our audit found that to produce an
        auditable Statement of Budgetary Resources, USIBWC had to record numerous
        significant manual adjustments to budgetary accounts in order to correct balances.
        During FY 201 1, USlBWC recorded almost $117 million in journal voucher adjustments
        related to budgetary accounts. Many of these journal vouchers had handwritten notations
        indicating that the adjustment was being done to "correct balances in budgetary
        accounts."

       Because the system is not sufficient for recording budgetary infonnation, USIBWC must
       correct balances through numerous journal vouchers. However, the journal vouchers do
       not include sufficient infonnation to describe the transaction, and usmwc does not
       maintain adequate documentation to support the purpose of the voucher. USIBWC is
       working with the Department of State to correct the deficiencies in the posting logic.

The deficiency rel ated to financial reporting was cited in our audit ofUSIBWC's 2010 financial
statements.

    • 	 During the audit, we learned that USrBWC had not recognized and reported a significant,
        multiyear improvement project constructed by another entity on behalf of US IBWC
        totaling more than $220 million. USIBWC did not have a routine physical inventory
        process that would ensure that all real property was identified and reported for financial­
        reporting purposes. US lBWC management was also unsure of the proper accounting
        treatment for improvements made by another organization to lBWC real property.

    • 	 We found that the contract accrual amounts reported by US IBWC were significantly
        misstated. Specifically, the Salaries and Expenses appropriation accrual was misstated
        by $987,501 , and the Construction appropriation accrual was misstated by $13,076,204.

                                                 3

       The methodology used by USIBWC to estimate contract accruals for financial statement
       reporting purposes was not valid. USIBWC based its methodology on conditions that
       existed in prior years, when it was receiving and expending funds from the American
       Recovery and Reinvestment Act. By the end ofFY 2011, the majority of these funds had
       been expended and no additional funds were received. However, USIBWC did not revise
       its estimation methodology to reflect current conditions.

       In addition, organizations are required to accumulate sufficient, relevant, and reliable data
       to support estimates. usrnwc did not have sufficient data to support the underlying
       assumptions used for the contract accrual estimation methodology, such as why it
       estimated current year obligations rather than using actual data. USIBWC also did not
       validate its assumptions using historical data. Validating assumptions would help to
       ensure that the estimation methodology provided reliable results. USIBWC should have
       formal procedures to validate the completeness and accuracy of the underlying data used
       to prepare the accrual estimate.

We noted certain other internal control issues that we have reported to USIBWC' s management
in a separate letter.

                     COMPLIANCE WITH LAWS AND REGULATIONS

USIBWC management is responsible for complying with laws and regulations applicable to
USIBWC. As part of obtaining reasonable assurance about whether the annual financial
statements are free of material misstatement, we performed tests of USIBWC' s compliance with
certain provisions of laws and regulations, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts, and certain other laws and
regulations specified in OMB Bulletin 07-04, as amended, that we deemed to be applicable to
USIBWC's annual financial statements. We limited our tests of compliance to these provisions,
and we did not test compliance with all laws and regulations applicable to USIBWC.
Noncompliance may occur and not be detected by these tests. This testing may not be sufficient
for other purposes. The objective of our audit of the annual financial statements, including our
tests of compliance with provisions of selected laws and regulations, was not to provide an
opinion on overall compliance with such provisions. Accordingly, we do not express such an
opinIOn.

Reportable instances of noncompliance are failures to follow requirements or violations of
prohibitions in statutes and regulations that cause us to conclude that the aggregation of the
misstatements resulting from those failures or violations is material to the financial statements or
that sensitivity warrants disclosure thereof. The results of our tests of compliance with selected
provisions of laws and regulations disclosed no reportable instances of noncompliance.

                         CONSISTENCY OF OTHER INFORMATION

USIBWC's Management ' s Discussion and Analysis and required supplementary information
contain a wide range of information. some of which is not directly related to the financial
statements. We did not audit, and accordingly do not express an opinion on, this information.
We have applied certain limited procedures, which consisted principally of comparing the
                                                 4

information for consistency with the financial statements and making inquiries of management
regarding the methods of measurement and presentation of the supplementary information. On
the basis of this limited work, we found no material inconsistencies with the financial statements,
accounting principles generally accepted in the United States of America, or OMB guidance.

                           RESPONSmILITIES AND METHODOLOGY

USIBWC management has the responsibility for

        • 	 preparing the annual financial statements, required supplementary information, and
            other accompanying information in conformity with accounting principles generally
            accepted in the United States of America;

        • 	 establishing, maintaining, and assessing internaJ control to provide reasonable
            assurance that the broad control objectives of the FederaJ Managers' FinanciaJ
            Integrity Act are met; and

        • 	 complying with applicable laws and regulations.

We are responsible for expressing an opinion on the annual financial statements based on our
audits. We are responsible for planning and performing an audit to obtain reasonable assurance
about whether USIBWC's financial statements are presented fairly, in all material respects, in
conformity with accounting principles generally accepted in the United States of America. We
are also responsible for determining whether USIBWC management maintained effective
internal control over financial reporting and compliance. We are also responsible for testing
compliance with selected provisions of applicable laws and regulations that may materially aITect
the financial statements and for performing limited procedures with respect to certain other
information appearing in the annual financial statements.

In order to fulfill these responsibi lities, we

        • 	 examined, on a test basis, evidence supporting the amounts in the annual financial
            statements and related disclosures;

        • 	 assessed the accounting principles used and significant estimates made by
            management;

        • 	 evaluated the overall presentation of the annual financial statements;

        • 	 obtained an understanding of the ent ity and its operations, including its internal
            controls related to financial reporting and compliance with laws and regulations;

        • 	 tested relevant internal controls over financial reporting and compliance and
            evaluated the design and operating effectiveness of internal control;

        • 	 considered the design of the process for evaluating and reporting in internal control

                                                  5

           and financia l management systems under the Federal Managers' Financial Integrity
           Act;

       • 	 tested compliance with provisions of selected laws and regulations that may have a
           direct and material effect on the annual financial statements;

       • 	 obtained written representations from management; and

       • 	 performed other procedures as we considered necessary under the circumstances.

We performed our audits in accordance with auditi ng standards generally accepted in the United
States of America; the standards applicable to financial audits contained in the Government
Auditing Standards; and the provisions ofOMB Bulletin 07-04, as amended. We believe that
our audits provide a reasonable basis for our opinions.

This report is intended solely for the information and use of usmwc management, the Office of
Inspector General , OMB, the Government Accountabi lity Office, and Congress and is not
intended to be and should not be used by anyone other than those specified parties. This
restriction is not intended to limit the distribution of this report, which is a matter of public
record.

Comments by USlBWC management on this report are presented as an appendix. The written
response by USlBWC management has not been subjected to the auditing procedures applied in
the audit of the financial statements and, accordingly, we do not express an opinion on these
comments.




                                                    Clarke Leiper, PLLC


Alexandria, Virginia
May 4, 2012




                                               6

                                                                                             APPENDlXA



                            INTERNATIONAL BOUNDARY AND WATER COMMISSION 

                                      UNITED STATES AND MEXICO 


                                              June 1, 2012



'''''''fn..,,,.'_\~'''' ,

        United States Department of State 

        Broadcasting Board of Governors 

        OffICe of Inspector General 

        Attn: Mr. Harold Geisel. Deputy Inspector General 

        Room 8100, SA-3 

        2201 C Street, NW. 

        Washington, DC 20520-0308 



        Subject Draft report AUOIFM-12-XX, May 2012 by Clarke Leiper. PlLC


        Dear Mr. Geisel:


        Thank you for the opportunity to provide a response to the comments on the draft
        independent auditor's report on the financial statements of the International Boondary
        and Water Commission, United States and Mexico, U.S. Section (USIBWq, as of, and
        for the years ended September 30, 2011 and 2010.

        We note that improvements have already been made to our internal policies and
        procedures in response to the recommendations provided in the report, and specific
        responses to each recommendation are provided .

                                           Sincere ,


                                        ~.~
                                      I~~~~,rf>rusina, P.E.


        Attachment as Stated
        cc: O. Forti, C. Par1<er


             The Commons. Budding C. SUite 100 . 4171 N Me.a StrMt · EI PalO, Texas 7g902·1441
                      (915) 832-4100 . Fall (915) 832"'190 . httpll'MYWUSIBWCgov




                                                    7

Please accept this letter as our response to your request for comments on the Draft
Independent Auditor's Report of the International Boundary and Water Commission,
United States and Mexico, U.S. Section, 2011 and 2010 Financial Statements.

                                  Audit Report

Significant Deficiency #1

The Department of State provides accounting services to USIBWC. Defects in the
construction of posting models within the Department of State's financial accounting
system have resulted in erroneous data being included in reports issued to USIBWC,
particularly in the area of budgetary accounts. Our audit found that to produce an
auditable Statement of Budgetary Resources, USIBWC had to record numerous
significant manual adjustments to budgetary accounts in order to correct balances.
During FY 2011, USIBWC recorded almost $117 million in journal voucher adjustments
related to budgetary accounts. Many of these joumal vouchers had handwritten
notations indicating that the adjustment was being done to ·correct balances in
budgetary accounts"

Because the system is not sufficient for recording budgetary information, USIBWC must
correct balances through numerous joumal vouchers. However, the journal vouchers
do not include sufficient information to describe the transaction, and USIBWC does not
maintain adequate documentation to support the purpose of the voucher. USIBWC is
working with the Department of State to correct the deficiencies in the posting logic.

Management's Response

Management concurs with the finding and recommendation . The USIBWC also concurs
with Clark Leiper's recommendation to continue to work closely with Department of
State representatives to ensure any other future issues related to the Global Financial
Management System are reported and corrected in a timely manner. The Department
of State representatives responded to the GFMS issues reported and have corrected
programming issues related to erroneous reporting of the USIBWC's budgetary
accounts.

Significant DefiCiency #2

During the audit, we learned that USIBWC had not recognized and reported a
Significant, multiyear improvement project constructed by another entity on behalf of
USIBWC tolaling more Ihan 5220 million. USIBWC did not have a routine physical
inventory process that would ensure that all real property was identified and reported for
financial-reporting purposes. USIBWC management was also unsure of the proper
accounting treatment for improvements made by another organization to USIBWC real
property.




                                            2




                                           8

Management's Response

Management concurs with the finding and recommendation . The USIBWC plans to
improve internal processes by conducting annual reviews of USIBWC's real property
inventory in accordance with Executive Order 13327 of February 4, 2004, and will
include:

1. On May 22ro:1, 2012 the Boundary and Realty (B&R) Division sent a memo to all Area
Operations Managers along with the most recent guidelines from the Federal Real
Property Council requesting that they review their real property inventory within their
jurisdiction. Area Operation Managers (AOMs) will have until August 31~ to submit their
reports.

2. Once reports are received, USIBWC Boundary and Realty will consolidate all reports.

3. Upon consolidation, B&R will then send the final report to Department of State by the
first week of October. This will allow time for USIBWC to respond to any and all inquiries
and meet the November 15th deadline.

Boundary and ReaHy wilt check with the Federal Real Property Council (established by
the Executive Order) for the most recent guidelines for reporting the real property
inventory. Data such as real property use, percentage of utilization , annual operating
costs, disposal, and determination of excess will be reported and any changes to the
report would be outlined within those guidelines.

Currently, the B&R Division has begun implementing this procedure and has mailed out
memos to all AOMs.

Significant Deficiency #3

We found that the contract ao::rual amounts reported by USIBWC were significantly
misstated. Specifically, the Salaries and Expenses appropriation ao::rual was misstated
by $987,501 , and the Construction appropriation accrual was misstated by $13,076,204.
The methodology used by USIBWC to estimate contract accruals for financial statement
reporting purposes was not valid . USIBWC based its methodology on conditions that
existed in prior years, when it was receiving and expending funds from the American
Recovery and Reinvestment Act. By the end of FY 2011 , the majority of these funds
had been expended and no additional funds were received . However, USIBWC did not
revise its estimation methodology to reflect current conditions.

In addition, organizations are required to accumulate sufficient, relevant, and reliable
data to support estimates. USIBWC did not have suffIcient data to support the
underlying assumptions used for the contract accrual estimation methodology, such as
why it estimated current year obligations rather than using actual data. USIBWC also




                                            3




                                           9

did not validate its assumptions using historical data. Validating assumptions would
help to ensure that the estimation methodology provided reliable results. USIBWC
should have formal procedures to validate the completeness and accuracy of the
underlying data used to prepare the accrual estimate.

Management's Response

Management concurs with the finding and recommendation. The USIBWC also concurs
with Clark Leiper's recommendation to document and fully implement a contract accrual
process. Consistent with Slatement of Federal Financial Accounting Standards No.1 ,
the USIBWC will recognize all liabilities for unpaid amounts of goods upon acceptance
of title of goods. For amounts where invoices are not available, the USUSIBWC will use
amounts of unpaid vouchers as of 30 September to estimate contract accruals.
Adjustments will be made after year-end closeout as necessary, and post revised
amounts to the financial statements. All supporting documentation will be maintained.
The contract accrual process will be incorporated into the Accounts Payable SOP.

Thank you again for the opportunity to respond to this draft report and please advise us
of any follow-up questions, comments, or concerns abou1 this response letter.

You may reach Diana Forti, Chief Administrative Officer at 915-832-4123 or Christopher
Parker, Internal Audit Program Manager at 915-832-4794 or via email at
Diana .Forti@USJBWC.gov or Christopher. Parker@USIBWe.gov .




                                           •





                                          10 

